No. 19-1069

IN THE

Supreme Court of the United States
TAKEDA PHARMACEUTICAL COMPANY LIMITED ET AL.,
PETITIONERS,
v.
PAINTERS AND ALLIED TRADES DISTRICT COUNCIL 82
HEALTH CARE FUND, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT

BRIEF OF PHARMACEUTICAL RESEARCH
AND MANUFACTURERS OF AMERICA
(PhRMA) AS AMICUS CURIAE IN SUPPORT
OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 30, 2020.

Cohn Casey Ho n
Wilson-Epes Printing Co., Inc.

